No. - - - - - - - INTHE
SUPREME COURT OF THE UNITED STATES
October Term 2020
MELINDA PEARSON,
Applicant/Petitioner,
v.
AUGUSTA, GEORGIA, et al.,
Respondents.

CERTIFICATE OF SERVICE
This is to certify that John P. Batson, the undersigned Member of the Bar of the Supreme
Court, did this date cause a copy of the following: Petition for Writ of Certiorari and Appendix to
be served upon Respondents' and interested counsel:
E-mailing a copy of the same to the email addresses listed below on the date of
electronic filing, November 19, 2020.
Respondent's Counsel
WBrown@augustaga.gov
Wayne Brown
Tameka Haynes
thaynes(a),frailswilsonlaw.com
Randolph Frails
rfrails(@,frailswilsonlaw.com
By delivering a paper copy of the same to a third-party commercial carrier,
for delivery within three calendar days, addressed as follows:
Wayne Brown
Augusta Law Department
520 Greene Street
Augusta, Georgia 30901

(706) 842-5550

Randolph Frails
Tameka Haynes
211 Pleasant Home Rd.,
Suite A-1
Augusta, Georgia 30907

(706) 855-6715

I further certify, pursuant to Rule 29.5, that all parties required to be served have been served.
This 4th day of December, 2020.

~~eti«

JP.BATSON

1104 Milledge Road
Augusta, GA 30904
706-737-4040
jpbatson@aol.com
Attorney for Petitioner Pearson
1

Counsel of Record
Member of Supreme Court Bar

•

2

